Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


  MASSACHUSETTS MEDICAID
   PAYMENTS TO ESSEX PARK
 REHABILITATION AND NURSING
CENTER DID NOT ALWAYS COMPLY
   WITH FEDERAL AND STATE
        REQUIREMENTS


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                 Michael J. Armstrong
                                               Regional Inspector General

                                                      January 2013
                                                      A-01-12-00015
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Massachusetts Executive Office of Health and Human Services, Office of Medicaid (State
agency), is responsible for administering MassHealth, the Massachusetts Medicaid program, in
compliance with Federal and State statutes and administrative policies. The State agency
reimburses nursing homes based on an established per diem rate for services provided to
Medicaid beneficiaries. Pursuant to Medicaid requirements, the State agency must use certain
additional resources that a beneficiary has, including Social Security payments, to reduce
Medicaid payments to nursing homes. The State agency determines the amount of the
beneficiary’s contribution during the financial eligibility process and enters this amount into its
computer system. The beneficiary’s contribution is remitted to the nursing home each month.

When the State agency reimburses the nursing home and does not reduce the Medicaid per diem
payment to the nursing home by the amount of the beneficiary’s contribution, the nursing home
could receive overpayments. Pursuant to Medicaid requirements, the nursing home must return
any overpayments to the State Medicaid program, which in turn is required to refund the Federal
share to the Centers for Medicare & Medicaid Services on its Form CMS-64, Quarterly
Statement of Expenditures for the Medical Assistance Program.

Essex Park Rehabilitation and Nursing Center (Essex Park) is a Massachusetts certified Medicare
and Medicaid nursing home located in Beverly, Massachusetts.

OBJECTIVE

Our objective was to determine whether the State agency made Medicaid payments to Essex
Park in accordance with Federal and State requirements from January 2008 through April 2012.

SUMMARY OF FINDING

Massachusetts Medicaid payments to Essex Park did not always comply with Federal and State
requirements. The State agency did not always adjust its Medicaid per diem payments to Essex
Park by the amount of beneficiaries’ cost-of-care contributions from resources, such as Social
Security and pensions. As a result, the State agency’s Federal claim was overstated by a total of
$28,322 ($16,393 Federal Share). We attributed the incorrect Medicaid payments to clerical and
billing errors.

RECOMMENDATIONS

We recommend that the State agency:

   •   collect overpayments totaling $28,322 from Essex Park and refund the Federal share of
       $16,393 and




                                                  i
   •   continue its efforts to ensure that Medicaid overpayments to nursing homes are identified,
       collected, and refunded.

ESSEX PARK REHABILITATION AND NURSING CENTER COMMENTS

In written comments on our draft report, Essex Park agreed with our finding. Essex Park’s
comments are included in their entirety as Appendix B.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our finding. The State
agency’s comments are included in their entirety as Appendix C.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                         Page

INTRODUCTION..........................................................................................................1

          BACKGROUND .................................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................1
               Objective ..................................................................................................1
               Scope ........................................................................................................1
               Methodology ............................................................................................2

FINDING AND RECOMMENDATIONS ...................................................................2

          FEDERAL AND STATE MEDICAID REQUIREMENTS................................2

          UNADJUSTED NURSING HOME PAYMENTS ............................................3

          AMOUNT OWED TO THE FEDERAL GOVERNMENT ................................3

          CAUSE OF UNREPORTED OVERPAYMENTS .............................................3

          RECOMMENDATIONS .....................................................................................3

          ESSEX PARK REHABILITATION AND
            NURSING CENTER COMMENTS ...............................................................4

          STATE AGENCY COMMENTS ........................................................................4

APPENDIXES

          A: MEDICAID OVERPAYMENTS TO ESSEX PARK REHABILITATION AND
             NURSING CENTER BY CALENDAR YEAR

          B: ESSEX PARK REHABILITATION AND NURSING CENTER COMMENTS

          C: STATE AGENCY COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. The
Massachusetts Executive Office of Health and Human Services, Office of Medicaid (State
agency), is responsible for administering MassHealth, the Massachusetts Medicaid program, in
compliance with Federal and State statutes and administrative policies.

The State agency reimburses nursing homes based on an established per diem rate for services
provided to Medicaid beneficiaries. Pursuant to Medicaid requirements, the State agency must
use certain additional resources that a beneficiary has, including Social Security payments, to
reduce its Medicaid payments to nursing homes. The State agency determines the amount of the
beneficiary’s contribution to the cost of care during the financial eligibility process and enters
this amount into its computer system. The beneficiary’s cost-of-care contribution is remitted to
the nursing home each month.

When the State agency does not reduce the Medicaid per diem payment to the nursing home by
the amount of the beneficiary’s contribution, the nursing home could receive overpayments.
Pursuant to Medicaid requirements, the nursing home must return the overpayments to the State
Medicaid program, which in turn is required to refund the Federal share to CMS on its Form
CMS-64, Quarterly Statement of Expenditures for the Medical Assistance Program.

Essex Park Rehabilitation and Nursing Center (Essex Park) is a Massachusetts certified Medicare
and Medicaid nursing home located in Beverly, Massachusetts.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency made Medicaid payments to Essex
Park in accordance with Federal and State requirements from January 2008 through April 2012.

Scope

For the period January 2008 through April 2012, we reviewed Medicaid accounts that were at
risk for having overpayments. We limited our review of internal controls to obtaining an
understanding of Essex Park’s procedures for reviewing accounts and reporting overpayments to
the Medicaid program.




                                                1
We performed fieldwork from September through November 2012 at Essex Park in Beverly,
Massachusetts; the State agency in Boston, Massachusetts; and the CMS Regional Office in
Boston, Massachusetts.

Methodology

To accomplish our objective, we:

   •   reviewed State and Federal regulations pertaining to overpayments,

   •   worked with Essex Park officials to identify credit balances in the accounting records that
       were potentially overpayments,

   •   reviewed patient accounts to determine whether overpayments had occurred,

   •   determined the cause of the overpayments, and

   •   coordinated our audit with officials from the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

Massachusetts Medicaid payments to Essex Park did not always comply with Federal and State
requirements. The State agency did not always adjust its Medicaid per diem payments to Essex
Park by the amount of beneficiaries’ cost-of-care contributions from resources, such as Social
Security and pensions. As a result, the State agency’s Federal claim was overstated by a total of
$28,322 ($16,393 Federal Share). We attributed the incorrect Medicaid payments to clerical and
billing errors.

FEDERAL AND STATE MEDICAID REQUIREMENTS

Pursuant to 42 CFR § 435, the State agency must reduce its payment to an institution for services
provided to a Medicaid-eligible individual by the amount that remains after adjusting the
individual’s total income for a personal needs allowance and other considerations that the
regulation specifies. MassHealth regulations at 450.316 note that all resources available to a
member, including but not limited to health and casualty insurance, must be coordinated and
applied to the cost of medical services provided by MassHealth.




                                                2
UNADJUSTED NURSING HOME PAYMENTS

The State agency made 52 overpayments to Essex Park from January 2008 through April 2012
(see Appendix A). Specifically, the State agency did not adjust its Medicaid payments to Essex
Park by the amount of beneficiaries’ cost-of-care contributions from resources, such as Social
Security and pensions.

               An Example of a Medicaid Overpayment for One Beneficiary

   Ms. N was a patient at Essex Park during May 2010. Based on her other resources, the
   State agency calculated Ms. N’s cost-of-care contribution to be $200 a month. The State
   agency determined that the nursing home was entitled to a monthly payment of $2,400.
   Because of Ms. N’s $200 cost-of-care contribution, the State agency was responsible for
   only $2,200 of the $2,400 nursing home costs. However, the nursing home received a total
   of $2,600 ($2,400 from the State agency and $200 from Ms. N), because the State agency’s
   computer system did not adjust the payment amount to take into consideration Ms. N’s
   cost-of-care contribution. Thus, the nursing home received an overpayment of $200
   ($2,600 minus $2,400) for Ms. N’s care for the month of May.

AMOUNT OWED TO THE FEDERAL GOVERNMENT

As a result of the overpayments, the State agency’s Federal claim for Medicaid payments made
to Essex Park for the period January 2008 through April 2012 was overstated by a total of
$28,322 ($16,393 Federal share).

CAUSE OF UNREPORTED OVERPAYMENTS

We attributed the 52 incorrectly reimbursed Medicaid payments to clerical and billing errors.
State agency officials informed us that they have recently implemented a new computer system
that will reduce future clerical and billing errors.

RECOMMENDATIONS

We recommend that the State agency:

   •   collect overpayments totaling $28,322 from Essex Park and refund the Federal share of
       $16,393 and

   •   continue its efforts to ensure that Medicaid overpayments to nursing homes are identified,
       collected, and refunded.




                                               3
ESSEX PARK REHABILITATION AND NURSING CENTER COMMENTS

In written comments on our draft report, Essex Park agreed with our finding. Essex Park’s
comments are included in their entirety as Appendix B.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our finding. The State
agency’s comments are included in their entirety as Appendix C.




                                               4
APPENDIXES
APPENDIX A: MEDICAID OVERPAYMENTS TO ESSEX PARK REHABILITATION
              AND NURSING CENTER BY CALENDAR YEAR




            Calendar     Number of         Total
             Year       Overpayments   Overpayments

             2008            3            1,205


             2009            1             518

             2010            19           14,370

             2011            13           9,444


             2012            16           2,785


            TOTAL            52          $28,322
   APPENDIX B: ESSEX PARK REHABILITATION AND NURSING CENTER COMMENTS



265 Essex Street
                                                                    ..   ,                            978.927.3260
Beverly, MA 01915                         Essex Park
                                         Rehabilitation and Nursing Center
                                                                                                Fax 978.922.8347




         November 27,2012




          Report Number: A-01-1200015

          Michael J. Armstrong 

          Regional Inspector General for Audit Services 

          Office of Inspector General 

          Office of Audit Services, Region I 

          JFK Federal Building 

          15 New Sudbury, Room 2425 

          Boston, MA 02203 



          Dear Mr. Armstrong;

          We are in agreement with your fmdings related to the $28 1322 in total overpayments for a
          calendar 2008-2012.


          Thank you.

          Sincerely,


         ~~,~MM
          Administrator
                            APPENDIX C: STATE AGENCY COMMENTS 




                               The Commonwealth of Massachusetts                                              assHe th
                           Executive Office ofHealth and Human Services 

                                          Office of Medicaid 

                                        One Ashburton Place 

                                         Boston, MA 021 08 
                                            JUDYANN BIGBY, M.D.
 DEVALL. PATRICK
     Governor                                                                                                Secretary

TIMOTHY P. MURRAY                                                                                       JULIAN J . HARRIS, M .D.
Lieutenant Governor                                                                                           Medicaid Director



    December 28, 2012

    Michael J. Armstrong 

    Regional Inspector General, Audit Services 

    HHS/OIG/OAS 

    Region I 

    JFK Federal Building 

    Boston, MA 02203 


    RE: Audit Report No: A-01-12-00015

    Dear Mr. Armstrong ,

    Thank you for the opportunity to review and comment on Draft Audit Report No: A-01-12-00015 

    "Massachusetts Medicaid Payments to Essex Park Rehabilitation and Nursing Center Did Not Always 

    Comply with Federal and State Requirements" . 


    Our responses to the report's specific recommendations are as follows:
    Recommendation: 

    1) Collect overpayments totaling $28,322 from Essex Park and refund $16,393, the Federal share of 

    these payments, to CMS on the next quarterly CMS~64. 


    Response: We are in agreement with this finding and will follow the procedures described in state 

    Med icaid regulations at 130 CMR 450.237 to collect the overpayments from the provider. Under 130 

    CMR 450 .237, the provider has a due process right to contest the overpayment, including the right to 

    request an adjudicatory hearing and judicial review. 


    MassHealth will need the OIGs working papers identifying the specific claims in order to undertake 

    collection of the overpayments, notify Essex Park and if required, defend the overpayment amounts 

    should Essex P~rk contes t the overpayment notice. If Essex Park does not contest the overpayment 

    collection or does not prevail in contesting this overpayment, MassHealth will ensure that the EOHHS' 

    Federa l Revenue Unit will return the Federal share on the appropriate CMS-64. 


    Recommendation: 

    2) Continue agency efforts to ensure that Medicaid overpayments to nursing homes continue to be 

    identified, collected and refunded. 


    Response: MassHealth is in agreement with th is recommendation and will ensure that periodic reviews 

    and audits continue to be conducted to identify, collect and refund overpayments . 


    Sincerely,,   )0\  ~




    Julian Harris, M. D. M13.A., M.Sc. 

    Medicaid Director 

